                                                              
 
 
 




                                                        
 




                    OFFICE OF JUSTICE PROGRAMS 

         EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS 

                          AWARDED TO THE 

              CITY OF PROVIDENCE POLICE DEPARTMENT 

                    PROVIDENCE, RHODE ISLAND



                        U.S. Department of Justice 

                     Office of the Inspector General 

                              Audit Division 

                    Philadelphia Regional Audit Office 



                         Audit Report GR-70-10-003 

                                 March 2010

  
                OFFICE OF JUSTICE PROGRAMS 

     EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS 

                     AWARDED TO THE 

          CITY OF PROVIDENCE POLICE DEPARTMENT 

                 PROVIDENCE, RHODE ISLAND 

                                       
                                       
                          EXECUTIVE SUMMARY 


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Edward Byrne Memorial Justice
Assistance Grants, numbers 2005-DJ-BX-1439, 2006-DJ-BX-0569,
2007-DJ-BX-1096, and 2008-DJ-BX-0442, awarded by the Department of
Justice Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA)
to the City of Providence Police Department (Providence) in Providence,
Rhode Island. The purpose of the grants was to improve the functioning of
Providence’s criminal justice system. In addition, we also evaluated
Providence’s capacity to effectively manage grants provided through the
American Reinvestment and Recovery Act of 2009 (Recovery Act).
Providence was in the process of receiving these additional funds from OJP
and the Office of Community Oriented Policing Services (COPS) at the time
of our audit. These funds included three Recovery Act grants including a
Byrne grant, number 2009-SB-B9-0441, a congressionally directed grant,
number 2009-CK-WX-0638, and a 2009 COPS Hiring Recovery Program
grant. The three Recovery Act grants awarded in 2009 totaled $6,144,946.

      The objectives of this audit were to: (1) determine whether
reimbursements claimed for costs under the grants received were allowable
and supported and, (2) whether Providence had the capacity to adequately
manage those grants it received through the Recovery Act. In addition, we
evaluated program performance and accomplishments for those grant
programs where Providence had expended funds.

      For the original grants received, we determined that Providence
complied with the grant requirements we tested, and all of the expenditures
that we tested were allowable, supported, and in accordance with applicable
laws, regulations, guidelines, and the terms and conditions of the grants.

      With regard to the 2009 Recovery Act funding, we believe that if
current procedures are followed, it appears that Providence should properly
manage and expend the funds.




                                      i
      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are discussed
in Appendix I.




                                       ii 

                               TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1 

      Office of Justice Programs ......................................................2 

      Bureau of Justice Assistance ..................................................2 

      City of Providence, Rhode Island Police Department ..................3 

      Previous Audit......................................................................3 

      Audit Approach ....................................................................3 

FINDINGS ................................................................................. 5 

      Internal Control Environment ................................................5 

      Expenditures .......................................................................5 

      Requests for Grant Funding ...................................................6 

      Budget Management and Control ............................................7 

      Reports ...............................................................................7

      Program Performance and Accomplishments.............................8 

      Compliance with Other Grant Requirements .............................8 

      Conclusions ......................................................................... 9 

 
 
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........10 

 
APPENDIX II – PROVIDENCE, RHODE ISLAND POLICE 

    DEPARTMENT RESPONSE TO THE DRAFT 

    AUDIT REPORT...............................................................11 


APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT AUDIT REPORT .......................................12

 
 




APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL 

    ANALYSIS OF RESPONSES..............................................14 

 
 
                               INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Edward Byrne Memorial Justice
Assistance Grants (JAG) numbers 2005-DJ-BX-1439, 2006-DJ-BX-0569,
2007-DJ-BX-1096, and 2008-DJ-BX-0442 awarded by the Department of
Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA)
to the City of Providence Police Department (Providence) in Providence,
Rhode Island. Between October 1, 2004, and October 1, 2007, Providence
received the four grants totaling $1,179,037. The main purpose of these
grants was to support a broad range of activities to prevent and control
crime including the improvement of the functioning of the criminal justice
system. In addition to these grants, in 2009, Providence was awarded three
American Reinvestment and Recovery Act (Recovery Act) grants, including a
Byrne grant for $1,615,134, a congressionally directed grant for $1,000,000,
and an Office of Community Oriented Policing Services Hiring Recovery
Program (CHRP) grant for $3,529,812. The Recovery Act funding of
$6,144,946 for FY 2009 represented over a five-fold increase in the federal
funding over the previous 4 years.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the recurring Byrne JAG grants were allowable and
supported. We also evaluated program performance and accomplishments
for these grants. In addition, our audit was designed to evaluate
Providence’s ability to effectively manage and control the dramatic influx of
federal grant funds in 2009. Our audit covered award activities from
October 2004 through October 2009.

     As shown in the table below, Providence was awarded a total of
$1,179,037 in Byrne grants through Fiscal Year 2008.

              BJA BYRNE MEMORIAL JUSTICE ASSISTANCE 

                   GRANT AWARDS TO PROVIDENCE 


                            AWARD         AWARD
          AWARD                                        AWARD AMOUNT
                          START DATE     END DATE
     2005-DJ-BX-1439       10/01/04       9/30/08       $        413,583
     2006-DJ-BX-0569       10/01/05      9/30/09        $        259,021
     2007-DJ-BX-1096       10/01/06      9/30/10        $        388,104
     2008-DJ-BX-0442       10/01/07      9/30/11           $     118,329
                                              Total    $       1,179,037
      Source: OJP Award documentation




                                        -1-
     As shown in the table below, Providence was awarded a total of
$6,144,946 in Recovery Act funds in 2009.

            AMERICAN REINVESTMENT AND RECOVERY ACT
                   GRANTS AWARDED IN 2009

                            AWARD          AWARD
          AWARD                                          AWARD AMOUNT
                          START DATE      END DATE
      Byrne JAG Grant      3/01/09         2/28/13       $   1,615,134
      Congressionally
                            3/11/09        3/10/12       $   1,000,000
          Directed
        COPS CHRP           7/01/09        6/30/12       $   3,529,812
                                                 Total   $   6,144,946
      Source: OJP Award documentation

Office of Justice Programs

       The Office of Justice Programs (OJP), within the U.S. Department of
Justice, provides the primary management and oversight of the grants we
audited. Through the programs developed and funded by its bureaus and
offices, OJP works to form partnerships among federal, state, and local
government officials in an effort to improve criminal justice systems,
increase knowledge about crime, assist crime victims, and improve the
administration of justice in America.

Bureau of Justice Assistance

       The Bureau of Justice Assistance (BJA) is one of five bureaus and four
offices with grant making authority within OJP. The BJA provides grants
through the Edward Byrne Memorial Justice Assistance Grant (JAG) program.
This program allows states and local governments to support a broad range
of activities to prevent and control crime and to improve the criminal justice
system. In FY 2005 JAG replaced the Byrne Formula and Local Law
Enforcement Block Grant programs with a single funding mechanism that
was intended to simplify the administration process for grantees. The JAG
grants are a combination of state and local formula grants and local
competitive grants.

      Providence has received a local formula grant from BJA in each of the
years we reviewed. These grants were awarded based on a formula
considering population and violent crime statistics. Our review concentrated
on the local formula grants provided to Providence for FY 2005 to 2008.
 


                                        - 2 -

City of Providence, Rhode Island Police Department
 
       The City of Providence, the capital of Rhode Island, is located on
Narragansett Bay and covers approximately 20 square miles. The
Providence Police Department is the second largest in New England with a
staff of 481 officers. Providence’s population is about 170,000 which is a
slight decline from the population of 173,618 in 2000.

       The city accounts for about 70 percent of the violent crime in the
state. Providence is bound by major roadways and interstate highways that
afford easy access into and out of the city. This makes Providence a popular
distribution center for drugs, gang violence, and violent crime. The
Providence Police Department has three main goals: (1) reduce crime,
(2) reduce fear and disorder, and (3) enhance homeland security awareness.
According to grant documentation, the police department is committed to
neighborhood-based community policing. This community policing includes
the use of extended bicycle and foot patrols which are funded through the
JAG grants.

      According to Providence grant application documents, a major issue for
the City of Providence and the state of Rhode Island is the current
unemployment rate of 13 percent and resulting economic crisis. This
economic crisis has resulted in annual declines of the police department
budget for the last two years as a result of declining state and city revenues.

Previous Audit

       In 2003, we conducted an audit of the Office of Community Oriented
Policing Services (COPS) grants to the Providence Police Department from
1995 through 1998. These grants totaled $4,692,552 and were intended to
hire or redeploy police officers from administrative duties to community
policing. Our audit identified deficiencies in the handling of the grant funds
and questioned over half of the grant expenditures.

      This prior audit was undertaken shortly after the arrival of a new city
administration and police chief. The current administration resolved the
issues with the previous grants and believes it has taken a proactive
approach to grant management.
 
Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audited against were contained in the Office of Justice


                                     - 3 -

Programs Financial Guide (OJP Financial Guide) and the award documents.
The OJP Financial Guide serves as a reference manual assisting award
recipients in their fiduciary responsibility to safeguard awarded funds and
ensure funds are used appropriately. We tested Providence’s:

     	 Internal control environment to determine whether the internal
        controls in place for the processing and payment of funds were
        adequate to safeguard grant funds and ensure compliance with the
        terms and conditions of the grants.

     	 Expenditures to determine whether costs charged to the grants
        were allowable and supported.

     	 Requests for grant funding to determine whether the requests for
        funding reimbursements or advances were adequately supported,
        and if grant receipts were managed in accordance with federal
        requirements.

    	 Budget management and control to determine whether
       Providence adhered to the OJP-approved budget for expenditures of
       grant funds.

     	 Reporting to determine whether the required Financial Status
        Reports and progress reports were filed on time and accurately
        reflected grant activity.

     	 Program performance and accomplishments to determine
        whether Providence achieved grant objectives and to assess
        performance and grant accomplishments.

     	 Compliance with other grant requirements to determine
        whether Providence complied with the terms and conditions specified
        in the individual grant award documents.

      When applicable, we also test for compliance in the areas of program
income, matching funds, and monitoring of consultants and contractors. For
these grants, we determined that Providence generated no program income
and matching funds were not required. The grants awarded in 2009 have
budgets for consultants, contractors, and accountable property. While not
an issue during previous grants, we examined the internal controls in place
to safeguard funds used for these purposes.




                                    - 4 -

                                 FINDINGS

      We determined that Providence generally complied with 

      grant requirements in the areas we tested. We found that 

      there were policies and procedures in place to ensure the 

      proper use of grant funding, and all grant-related 

      expenditures we tested were allowable and supported with 

      proper documentation. 


Internal Control Environment

      We began this audit by developing an understanding of the internal
controls the City of Providence and the Providence Police Department
employed for the processing and payment of grant funds. Our review was
done in order to ensure these controls were consistent with the terms and
conditions of the grants we audited and that safeguards were in place to
ensure the proper use of the 2009 grant funds awarded. We interviewed
grant officials and requested data from the accounting and processing
systems to determine whether the controls were designed to properly
account for grant funds and if the controls were working as designed.
 
      An important aspect of internal controls is to have policies and
procedures in place to ensure that grant funds are properly controlled and
result in allowable and supportable payments. We interviewed staff who
were directly involved in the control and expenditure of grant funds and
determined that appropriate internal controls existed over the grant funds.
In addition, we tested actual expenditures to determine if the procedures
described were followed and worked as intended. We found that the internal
controls were working and appeared to be adequate to safeguard the funds.

Expenditures

Testing

      For the FY 2005 to 2008 JAG grants we audited, the majority of
funding was expended on overtime payments. This overtime was designed
to support Providence’s implementation of community policing. From these
overtime payments, we selected a random sample of 50 overtime payments
per grant to determine if the expenditures were properly made and
supported.

      In performing this testing, we identified all employees whose overtime
was reimbursed with grant funds. We selected random employees with
varying pay rates to include patrol officers, detectives, and lieutenants. For


                                     - 5 -

the overtime payments selected, we determined that the expenditures were
allowable and supported with proper documentation. This included
overtime sheets completed by Providence noting the time, location, and
purpose of the overtime and included a supervisor’s signature. In addition,
we verified that the proper payments were made and charged to the grant.
 
Accountable Property

      For grants prior to 2009, none of the grant funds used by Providence
were expended for accountable property. The 2009 grants included budget
items for vehicles, bikes, and a horse trailer. In order to ensure that the
procedures were in place to properly safeguard the planned expenditures for
accountable property, we assessed the procurement process for the property
purchased through October 2009. We physically inspected the six vehicles
and the horse trailer purchased at the time of our audit. We also reviewed
the purchase orders and the approval process for these expenditures. The
internal controls and procedures for procurement appeared adequate to
safeguard the funds and the property purchased with the funds, and were
being executed as intended.

    Requests for Grant Funding

      The OJP Financial Guide establishes the methods by which the
Department of Justice makes payments to grantees. The methods and
procedures for payment are designed to minimize the time elapsed between
the transfer of funds by the government and the disbursement of funds by
the grantee. Grantees may request grant funding on a reimbursable basis or
in advance of making actual outlays. However, if grant funding is requested
as an advance, the grantee must ensure that cash on hand is kept to a
minimum and disbursed immediately or within 10 days.

      We determined that, for the FY 2005 through 2008 grants, funds were
requested on a reimbursement basis. The procedure used by Providence for
the grants established that all overtime would be paid using city funds. The
grant-funded reimbursable overtime would be identified and tracked by the
Finance Office. At various times throughout the grant period, the overtime
would be totaled and a drawdown request made from OJP. The grant funds
would then be given to the City as reimbursement for the overtime
payments already made.

       We compared the requests for funding to the accounting records and
determined that for the grants in FY 2005 through 2008, Providence
appropriately and accurately requested grant funding on a reimbursement
basis.


                                    - 6 -

      For some of the 2009 ARRA grants, including the Byrne grant,
grantees were allowed to request the complete grant award amount at one
time. The only condition was that the money be placed in a dedicated “trust
fund”. As a result, Providence completely drew down their funds within a
month of receiving the award for the Byrne grant. The funds have been
placed in a dedicated account, as required. Additionally, at the time of our
fieldwork, the city was establishing a dedicated account for all ARRA related
funds, including the Byrne grant, to simplify the reporting and accountability
required under these grants.

Budget Management and Control

      Because the FY 2005 through 2008 grants were considered formula
grants, Providence was not required to submit budgets for approval.
However, Providence did submit budget information as part of its application
and spent nearly all of the grant funds on overtime as outlined in the budget
information provided in the grant applications.

      For the 2009 ARRA Byrne grant and the congressionally directed grant,
budgets were required. During our visit, we found that some budget shifts
were being made and Providence officials were aware of the requirement to
obtain OJP approval for reprogramming funds. In fact, Providence had
already received re-budgeting approval for one of the ARRA grants.

Reports

Financial Status Reports

      OJP monitors the financial aspects of grants through Financial Status
Reports (FSRs). FSRs provide OJP grant managers current and cumulative
information on expenditures and obligations on a quarterly basis and are one
way OJP monitors grants. According to the OJP Financial Guide, FSRs should
be submitted within 45 days of the end of the most recently passed
quarterly reporting period.1

       By comparing the amount of total expenditures reported on the FSRs
with expenditure data from the accounting records maintained by
Providence, we determined that all FSRs accurately reflected grant related
activities.

      For the four grants we reviewed, Providence submitted all of the
required FSRs. One FSR for the 2006 grant was over a year late and the
                                                            
              1
                   For FY 2009 and later grants these reports are now due within 30 days. 


                                                               - 7 -

failure to file was an oversight. Three other FSRs for the 2008 grant were
significantly late. However, we found that the project period for the grant
ran from October 2007 through September 2011, while the actual award was
made on September 5, 2008. As a result, before Providence had even
received the grant award they were already delinquent on three progress
reports for this grant.

Progress Reports

      According to the JAG program guidelines, grantees are required to
submit an Annual Performance Report. The reports include specific
information about activities performed using grant funds and the results of
those activities. The Performance Reports through FY 2008 grants covered
the calendar year January 1 to December 31 and were due by March 31.
Beginning with FY 2009 grants, annual reports are due 60 days following the
close of federal fiscal year or November 29.

      We reviewed the progress reports submitted by Providence during the
grant periods audited for accuracy and timeliness. We determined the
information contained in these reports was consistent with financial and
other documents related to the grants. We also determined the reports
were submitted on time.

Program Performance and Accomplishments

      The overall objective of the Providence JAG grants was to reduce
crime, fear and disorder, improve citizen safety, and enhance homeland
security in the city’s neighborhoods. To meet this objective, Providence was
to use JAG funds for increased police visibility through the use of overtime
funding of foot and bicycle patrols.

      In performing our fieldwork, which included a ride-along with
department personnel, we found that Providence used its JAG funds to
provide overtime for foot and bicycle patrols. Additionally, the
accomplishments cited in the grant-related reports included arrests and
other activities conducted during the federally funded overtime.

Compliance with Other Grant Requirements

      In addition to the general grant requirements, we tested for
compliance with the terms and conditions specified in the individual grant
award documents. We determined that the award documentation included
special conditions that ranged from 13 special conditions in the 2005 grant



                                    - 8 -

to 20 in the 2007 grant. We reviewed the special conditions and determined
that Providence complied with the special conditions for each of the grants.

Conclusions

      In our review of the Byrne Memorial Justice Assistance Grants to
Providence for FYs 2005-2008, we found that Providence generally complied
with the grant requirements we tested and all of the expenditures that we
tested were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the grants.

        With regard to the 2009 Recovery Act funding Providence was in the
process of receiving during our audit, we believe that if current procedures
are followed, it appears that Providence should properly manage and expend
those funds.




                                    - 9 -

                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grants, Byrne grants 2005-DJ-BX-1439,
2006-DJ-BX-0569, 2007-DJ-BX-1096, and 2008-DJ-BX-0442 were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the grants. Our audit concentrated on the
award periods of the grants and included award activities from October 2004
through October 2009. This included a review of three Recovery Act grants
awarded in 2009 including a Byrne grant, a congressionally directed grant,
and a COPS Hiring Recovery Program grant. We also assessed grantee
program performance in meeting grant objectives and overall
accomplishments. The objective of our audit was to review activities in the
following areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined matching
and program income were not applicable to these grants. In addition,
property management and monitoring of subgrantees and contractors were
not applicable to these grants, but would be applicable for the 2009 grants.
As a result, we reviewed these areas for the future grant activity.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we planned and performed the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our
audit objectives.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the
criteria we audited against are contained in the Office of Justice Programs
Financial Guide and the award documents.

      In addition, we reviewed the timeliness and accuracy of Financial
Status Reports and Progress Reports, evaluated performance of grant
objectives, and considered internal control issues. However, we did not test
the reliability of the financial management system as a whole.
 


                                    - 10 -

                                                                                                    APPENDIX II



   PROVIDENCE, RHODE ISLAND POLICE DEPARTMENT 

       RESPONSE TO THE DRAFT AUDIT REPORT 




            Hrlu.. M . i=:~~mun                                               Dltvld N. Cicilline
              Chief of r olla:                                                      Mayor




                                  Providence Police Department
                                       "8 uildil'lkPriJI!Jn Prvvidcna-




March 24,2010

Mr. Thomas O. P uerzer
Regional Audit Manager
Offiee of the Inspector General
U .S . Department o f Justice
701 Market Street, Suite 20 1
Philadelphia, PA 19106

Subject:		Response to the Draft Audit Report of Bureau of Justice Assistance & COPS Office
          Grants

Dear Mr. Pucrzer:

I want to thank you for the opportunity to comment on the draft audit report concerning the
Prov idence Police Department's management of the Edward Byrne Memorial Justice Assistance
and COPS Office federal grants . The grants audited were award beginning in 2005 through 2009.
As the rep ort concludes, th ere were no findings issued as a result of the audi t. The Prov idence
Police Department is in agreement with this conclusion and will continue to manage its grouts in
acc ordance with all applicable laws, regulations, guidelines, and grant tenus and conditions.

The Providence Police Department would also like to thank the audit staff for their professionalism
throughout the entire audit process. They provided clear direction and made several
reco mm endations that will f urt her improve the Department's grant management proceases.

If you have any questions concerning the Department's response to the audit, please contact




                       -:
Mich      'Too at (401) 243-6372.




Dean   ~ssc:rman
Co lonel
C hi " f of Pol i,:c




                                                 - 11 ­

                                                                                       APPENDIX III

  OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
               DRAFT AUDIT REPORT

                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                                    Office of Audit, Assessment, and Management



                                                    "bslli/lg/on, D.C 20531




MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Office of the Inspector General
                              Philadelphia Regional Audit Office

FROM:                         Maureen A!JIenneberg
                              Director ~.7t~Jr

SUBJECT:                      Response to the Draft Audit Report, Office ofJustice Programs.
                              Bureau ofJustice Assistance Grants Awarded to the City of
                              Providence Police Department. Providence, Rhode Island

This memorandum is in response to your correspondence dated February 26,2010, transmitting
the above -referenced draft audit report for the City of Providence Police Department. The draft
report does not contain any recommendations, The Office of Justice Programs has reviewed the
draft audit report and does not have any comments.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office ofAudit, Assessment, and Management

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Gale Farquhar
       Program Manager
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division




                                            - 12 ­
cc:   OJP Executive Secretariat

      Control Number 20100321





                                     2





                                   - 13 ­
                                                              APPENDIX IV 



                    OFFICE OF THE INSPECTOR GENERAL
                         ANALYSIS OF RESPONSES


      We provided a copy of the draft report to both the Providence, Rhode
Island, Police Department (Providence) and the Office of Justice Programs
(OJP) for their review and comment. The Providence response is included as
Appendix II of this report, and the OJP response is included as Appendix III.

      Both Providence and OJP acknowledged the report, but because there
were no findings or recommendations in the report, neither agency provided
further comment.

      Because this report contains no audit recommendations, this audit
report is closed.




                                    - 14 -

